                             CLOSEOUT FOR M93060034



stated that several




and a consortium of universities.

       OIG requested and received a detailed description of the complainant's concerns from
him. After reviewing this material OIG determined that these issues were not misconduct in
science, and were most appropriately handled by the Audit Division of the Inspector General's
Office. This misconduct case was closed without further action and the pertinent information
transferred to Audit.




Concurrence:




Donald E. Buzzelli
Deputy Assistant Inspector General for          Assistant Inspector General for Oversight
Oversight




~ssistantCounsel to the Inspector General

cc:    Signatories
       Inspector General
